                     OFFICE OF THE ASSISTANT SECRETARY OF               DEFENSE
                                   WASHINGTON, W C t0301G.500




                                                                               JAN 0 6 2086
Mr David I Riha~t
Assocltlte 1)irector
Office of Progra~ns,Huclget, Rcsca~chand E\alualions
ORce ofNationa1 Drug Cont~alPdicy
750 17'" Street, X\I'
Lliashin@oi~,DC, 20503

Dear Rlr Rivait:

         111 111y capacity as P~incipctlDirect01 for Countcrnarcotics, 1 assert that the drug
methodology used to calculate obligatio~~s      by diug contr.01 iiinclion of Fiscal Year ZOOS
budgetary Iesoulres is reasonable nnd accu~atc.I filrtl~crassc1.t that tliu obligntiori table in
'LAB A was generated by the methodology as tctlectcd in TAR R The ohl~gationsarc
assoclureci w l ~ ha flnanclal plan ihar pruperly rrsflccls all ctrdr~gcsrrutdlilc ilulillg lllc fisudl
y c a ~ The Cl~uuntcrnarcotics Central Ti:ansie~A~cco~rnt    does not receive Fund Conrtol
Notices and, thereforel any assertion regarding this i s inapplicr~bie
                                   INSPECTOR GENERAL
                                  DEPARTMEM OF DEFENSE
                                    400 ARMY NAVY DRIVE
                              ARL.INGTON, VIRGINIA 22202-4704
                                                                             January 26,2006

MEMORANDUM FOR THE DEPUTY ASSISTANT SECRETARY OF DEFENSE
               (COUNTERNARCOTICS)

SUBJECT: Independent Auditor's Report on the DoD FY 2005 Detailed Accounting
Report of'the Funds Obligated for National Drug Control Program Activities
(Report No D-2006.-04'7)

        Public Law 105-277 is known also as "The Office of National Drug Control Policy
Reauthorization Act" (the Act) The Act requires that DoD annually submit a detailed report
(the Report) accounting for all funds that it obligated for National Drug Control Program
activities during the previous fiscal year to the Director of the Office of National Drug
Control Policy The Report is due no later than February 1 each year The Act also requires
that the Inspector General of the Department of Defense authenticate the Report prior to its
submiss~onto the D~rector

        Office of National Drug Control Policy Circular "Drug Control Accounting," (the
Accounting Policy Circular) April 18,2003, provides the policies and procedures to be used
in preparing the Report and authenticating the DoD funds obligated on National Drug
Control Program activities The Accounting Policy Circular specifies that the Report must
contain a table of prior year drug control obligations, listed by functional area, and include
five assertions relating to the obligation data presented in the table,

        The Deputy Assistant Secretary o f ' D e f e ~(Cpuntemarcotics)
                                                      e                 (DASD[CN]) is
responsible for the detailed accounting of finds obligated by DoD for the National Drug
Control Program for FY 2005 We have reviewed the DASD (CN) detailed accounting in
accordance with the attestation standards established by the American Institute of' Certified
Public Accountants and in compliance with generally accepted government accounting
standards A review-level attestation is substantially less in scope than an examination, the
objective of'which is the expression of' an opinion on the subject matter Accordingly, we
do not express an opinion,

       We reviewed four DoD reprogramming actions that allocated $1,147 8 million
among the Military Departments, National Guard, and Defense agencies We determined
that DASD (CN) had allocated the funds to appropriations and project codes intended for the
DoD Counterdrug program We obtained the year-end obligation reports fiam the Military
Departments and National Guard

       The DoD Office of Inspector Gener.al issued Report No D-2006-012, "Report on
Controls Over Funds Used by DoD for the National Drug Control Program" on November 7,
2005, which concluded that the funds allocated to the counterdrug program were used for
counterdrug purposes for the transactions tested However, we identified a material
management control weakness related to the DoD Components' accounting for counterdrug
funds In response to this weakness, DASD (CN) issued a policy memorandum on
August 25,2005, requiring detailed transaction support for all Counterdrug obligations,
        As part of'ow review attestation for FY 2005, we determined whether the DoD
Components that received Counterdrug funding h m DASD (CN) had implemented
procedures to support reported obligations with detail transaction listings We requested and
obtained the listings that were available for reported obligations; however, the Military
Components were not able to support all obligations with detail transaction listings We
determined that the Military Components did not have adequate time to implement
procedures that would satisfy the DASD (CN) policy requiring detail transaction support for
all obligations

       DASD (CN) provided the Report in a letter dated January 6,2006, which we
reviewed to determine compliance with the Accounting Policy Circular The detailed
accounting indicated that $1 ,I 16.1 million was obligated during FY 2005 for the DoD
Counterdrug program in seven functional areas The Office of the DASD (CN) manually
compiled the Report from data the Military Departments and other DoD Components
submitted

        DASD (CN) initially reprogrammed the funds from the Central Transfer Account to
the DoD Components, using project codes The DoD Components provided year-end
obligation reports, identified by the same project codes, to the Office of the DASD (CN)
The Office of the DASD (CN) consolidated the year-end obligation reports into one
obligation report. In o r d a to present the obligations by functional area in compliance with
the Accounting Policy Circular, the Office of'the DASD (CN) applied percentages to each
project code in the consolidated report to compute the amounts presented in the table of
obligations instead of obtaining the information directly from the accounting systems

        We cannot attest to the amounts presented in the Report's table of obligations
However, we can attest that the methodology described in the Report is the methodology
used to generate the amounts presented. Based on our review, except for the fact that the
Office of the DASD (CN) used percentages to calculate the obligations presented by
functional area, nothing came to ow attention during the review that caused us to believe the
detailed accounting of funds obligated by DoD on the National Drug Control Program for
FY 2005 is not presented, in all material respects, in conformity with the Accounting Policy
Clrcular



                                                                        -


                                 #aul J Granetto, CPA
                               F i s t a n t Inspector General
                                Defense Financial Auditing
                                             Service
